Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




   IHS CONTRACT HEALTH
    SERVICES PROGRAM:
OVERPAYMENTS AND POTENTIAL
         SAVINGS




                    Daniel R. Levinson
                     Inspector General

                     September 2009
                     OEI-05-08-00410
                 Office of Inspector General
                                  http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
I N T R O D        U C T            I O N
Δ    E X E C U T I V E                                    S U M M A R Y


                    OBJECTIVES
                    1.         To determine the extent to which the Indian Health Service
                               (IHS) and tribes paid for Contract Health Services (CHS)
                               program hospital claims above the required Medicare rate.

                    2.         To assess the potential savings if CHS program nonhospital
                               claims were paid at the Medicare rate.


                    BACKGROUND
                    In fiscal year 2008, IHS was given a budget of $3.35 billion to provide
                    health care to approximately 1.9 million American Indians and
                    Alaska Natives belonging to federally recognized tribes. IHS can
                    provide health care directly or tribes can operate their own health
                    care programs. IHS and tribes provide direct health care to American
                    Indians and Alaska Natives mainly at small health clinics offering
                    routine health care.

                    When an IHS or tribal health-care facility is not available or does not
                    provide required emergency or specialty care, IHS and tribes rely on
                    the CHS program. IHS manages the CHS program through 84 area
                    offices and local service units. Tribes manage the CHS program
                    through 175 tribally operated service units.

                    Pursuant to the Medicare Prescription Drug, Improvement, and
                    Modernization Act of 2003 (MMA) and IHS’s implementing
                    regulations, all Medicare-participating hospitals must accept
                    reimbursement no greater than the Medicare rate as payment in full
                    for patients eligible for CHS. Nonhospital providers, such as
                    physicians, are not covered by this MMA provision.

                    We analyzed 716 paid CHS claims for services delivered between
                    January and March 2008. For each claim, we determined the
                    Medicare rate. We then calculated the difference between the
                    Medicare rate and the CHS payment. We projected all statistics to
                    IHS and the 63 percent of tribes from which we received claims.


                    FINDINGS
                    IHS and tribes paid above the Medicare rate for 22 percent of
                    hospital claims between January and March 2008, resulting in
                    $1 million in overpayments. While 22 percent of hospital claims
 OEI-05-08-00410    I H S C O N T R A C T H E A LT H S E R V I C E S P R O G R A M : O V E R PAY M E N T S   AND   P O T E N T I A L S AV I N G S   i
E X E C U T I V E                       S U          M M A R Y


                   were paid above the Medicare rate, the resulting overpayments only
                   accounted for 3 percent of the total $33 million that IHS and tribes
                   spent on hospital claims between January and March 2008. Most
                   overpayments were for hospital outpatient claims. Tribes accounted
                   for most dollars overpaid.
                   If IHS and tribal payments for nonhospital claims were capped at
                   the Medicare rate, they could have saved as much as $13 million
                   between January and March 2008. IHS and tribes paid above the
                   Medicare rate for 71 percent of nonhospital claims. Most of these
                   claims paid above the Medicare rate were for physician services.


                   RECOMMENDATIONS
                   IHS and tribes should take appropriate action regarding overpaid
                   CHS hospital claims. We have forwarded all IHS hospital claims
                   that we determined were overpaid to IHS, and all tribal hospital
                   claims that we determined were overpaid to tribes.
                   IHS should direct its fiscal intermediary to ensure that all future
                   CHS hospital claims are paid at or below the Medicare rate. We
                   found that the IHS fiscal intermediary paid $231,000 over the
                   Medicare rate for hospital claims.
                   IHS should provide technical assistance to tribes to ensure proper
                   payments of hospital claims. As a first step, IHS and tribes could
                   work together to determine why hospital claims were paid over the
                   Medicare rate. IHS could then develop guidance to prevent future
                   overpayments.
                   IHS should seek legislative authority to cap payments for CHS
                   nonhospital services. The passage of the MMA provision helped
                   ensure lower rates for hospital services. A separate provision may be
                   necessary to ensure lower rates for nonhospital services.


                   AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                   RESPONSE
                   IHS concurred with all four of our recommendations. We did not
                   make any changes based on IHS comments.




 OEI-05-08-00410   I H S C O N T R A C T H E A LT H S E R V I C E S P R O G R A M : O V E R PAY M E N T S   AND   P O T E N T I A L S AV I N G S   ii
Δ   T A B L E          O F           C O N T E N T S



         EXECUTIVE SUMMARY .....................................i


         INTRODUCTION ........................................... 1



         FINDINGS ................................................. 8
                   IHS and tribes paid above the Medicare rate for 22 percent of
                   hospital claims between January and March 2008, resulting in
                   $1 million in overpayments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8

                   If IHS and tribal payments for nonhospital claims were capped
                   at the Medicare rate, IHS and tribes could have saved as much as
                   $13 million between January and March 2008 . . . . . . . . . . . . . . . . 9



         R E C O M M E N D A T I O N S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
                   Agency Comments and Office of Inspector General Response . . . 13


         A P P E N D I X E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
                   A: Detailed Methodology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15

                   B: Estimates and Confidence Intervals. . . . . . . . . . . . . . . . . . . . . 19

                   C: Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23


         A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 26
I N T R O D        U C T            I O N
Δ    I N T R O D U C T I O N


                    OBJECTIVES
                    1.         To determine the extent to which the Indian Health Service
                               (IHS) and tribes paid for Contract Health Services (CHS)
                               program hospital claims above the required Medicare rate.

                    2.         To assess the potential savings if CHS program nonhospital
                               claims were paid at the Medicare rate.


                    BACKGROUND
                    Indian Health Service
                    IHS provides health care to approximately 1.9 million American
                    Indians and Alaska Natives belonging to federally recognized tribes.
                    IHS can provide health care directly or may fund tribes to
                    independently deliver health care. The Indian Self-Determination
                    and Education Assistance Act (ISDEAA) allows individual tribes, or
                    consortia of tribes, the option to operate health care programs in lieu
                    of IHS through self-determination contracts or self-governing
                    compacts with IHS. 1
                    In fiscal year (FY) 2008, IHS’s budget was $3.35 billion. 2 With this,
                    IHS and tribes provided health care directly at more than
                    700 facilities across the country, mainly on reservations or in rural
                    communities. 3 Most of these facilities were small health clinics
                    providing routine health care. In addition, IHS and tribes directly
                    funded 46 hospitals, of which 20 had operating rooms. 4
                    Contract Health Services
                    When an IHS or tribal facility is not available or does not provide
                    required emergency or specialty care, IHS and tribes rely on the CHS
                    program. Over 17 percent of the IHS budget went to fund the CHS
                    program in FY 2008.


                         1 Titles I and V of the Indian Self-Determination and Education Assistance Act,
                    P.L. No. 93-638 (as amended).
                         2 IHS, “FY 2009 Budget Justification.” Available online at
                    http://www.ihs.gov/NonMedicalPrograms/BudgetFormulation/bf_cong_justifications.asp.
                    Accessed on March 24, 2009.
                         3 IHS, “Fact Sheets: Facilities Construction.” Available online at
                    http://info.ihs.gov/FcltCnstr.asp. Accessed on March 24, 2009.
                         4 “Access to Contract Health Services in Indian Country: Hearing Before the U.S. Senate
                    Committee on Indian Affairs,” 107th Cong. 4 (2008). Statement of Robert McSwain, Director
                    of IHS.



 OEI-05-08-00410    I H S C O N T R A C T H E A LT H S E R V I C E S P R O G R A M : O V E R PAY M E N T S   AND   P O T E N T I A L S AV I N G S   1
I N T R O D        U C T            I O N


                    The CHS program contracts with private providers, such as hospitals
                    and physicians, to deliver health care. CHS program staff try to
                    negotiate the lowest price possible to deliver services to the American
                    Indian and Alaska Native population in their area. Historically, IHS
                    and tribes have had difficulty negotiating low rates due to the
                    relatively small number of eligible individuals and because there are
                    few private providers in rural areas. 5
                    The CHS program is administered and managed through
                    259 IHS- and tribally operated service units. Service units contain
                    one or more hospital, health clinic, or other health care facility. IHS
                    manages the CHS program through 84 area offices and local service
                    units. Tribes manage the CHS program through 175 tribally operated
                    service units. Compacting tribes can supplement and reallocate CHS
                    funds without IHS approval. 6
                    CHS medical priorities. Due to limited funding, the CHS program can
                    typically only fund the highest medical priority care, such as
                    emergency care. 7 The CHS program often defers or denies
                    lower-priority services, including specialty care. Among IHS CHS
                    programs, an estimated 200,000 services were deferred or denied in
                    2008. This figure only includes IHS CHS programs and thus would
                    likely be significantly greater if tribes were included.

                    CHS payments. The CHS program is the payer of last resort. 8 If an
                    American Indian or Alaska Native receiving CHS has other insurance
                    coverage such as Medicare or Medicaid, that insurance pays first and
                    CHS funds pay for any remaining costs. 9 If a patient does not have
                    other insurance, the CHS program pays for claims in full or at a rate
                    negotiated with a provider as long as there are CHS program funds to
                    do so.

                    Generally, IHS and tribes use different claims processing and
                    reimbursement systems to pay private providers. IHS contracts with
                    BlueCross BlueShield of New Mexico as a centralized fiscal


                        5 IHS, “Contract Health Services.” Available online at http://info.ihs.gov/CHS.asp.
                    Accessed on March 24, 2009.
                        6 ISDEAA § 506(e), 25 U.S.C. § 458aaa-5(e).
                        7 IHS, “Fact Sheets.” Available online at http://info.ihs.gov/CHS.asp. Accessed on
                    April 14, 2009. 42 CFR § 136.23(e).
                        8 42 CFR § 136.61.
                        9 42 CFR § 136.30(g).




 OEI-05-08-00410    I H S C O N T R A C T H E A LT H S E R V I C E S P R O G R A M : O V E R PAY M E N T S   AND   P O T E N T I A L S AV I N G S   2
I N T R O D        U C T            I O N


                    intermediary to process CHS claims. 10 Eight tribes also use this
                    fiscal intermediary. The remaining tribes use other systems to pay
                    providers.
                    CHS and Hospital Services
                    Pursuant to the Medicare Prescription Drug, Improvement, and
                    Modernization Act of 2003 (MMA) and its implementing regulations,
                    all Medicare-participating hospitals must accept reimbursement no
                    greater than the Medicare rate as payment in full for patients eligible
                    for CHS. 11 This change took effect on July 5, 2007.
                    The MMA provision applies to both hospital inpatient overnight stays
                    and same-day hospital outpatient visits. Hospital facilities include
                    acute care hospitals, psychiatric hospitals, critical-access hospitals,
                    and long-term care hospitals. 12 We consider all claims for services
                    provided in these facilities to be “hospital claims.”
                    CHS and Nonhospital Services
                    The MMA provision does not apply to nonhospital facilities. For
                    instance, independent laboratories, ambulatory surgical centers, and
                    independent ambulance providers are not covered and therefore are
                    free to bill and receive payment above the Medicare rate for patients
                    eligible for CHS. Additionally, physician services, including those
                    provided in a hospital, are not covered by the MMA provision. We
                    consider all claims for physician services and services provided in
                    nonhospital facilities to be “nonhospital claims.”
                    Related Reports
                    A 1999 Office of Inspector General (OIG) study found that in
                    1995, the CHS program paid almost $5 million more than the
                    Medicare rate to hospitals. That study focused on hospital inpatient
                    stays funded only by IHS. It did not review claims from tribes, or any
                    claims for hospital outpatient visits. 13 Subsequent to that study, IHS
                    required Medicare-participating hospitals to accept reimbursement



                       10 IHS, “Contract Health Services Data Quality Workgroup, CHS 101.” Available online
                    at http://www.ihs.gov/NonMedicalPrograms/dqwg/dqwg-section1-home.asp. Accessed on
                    March 24, 2009.
                      11 Medicare Prescription Drug, Improvement, and Modernization Act of 2003 § 506,
                    P.L. No. 108-173; 42 CFR § 136.30.
                        12 42 CFR § 489(b).
                        13 OIG, “Review of the Indian Health Service’s Contract Health Service Program,”
                    A-15-97-50001, January 1999.



 OEI-05-08-00410    I H S C O N T R A C T H E A LT H S E R V I C E S P R O G R A M : O V E R PAY M E N T S   AND   P O T E N T I A L S AV I N G S   3
I N T R O D        U C T            I O N


                    equal to or lower than the Medicare rate for patients eligible for CHS,
                    pursuant to the authority granted in the MMA provision.


                    METHODOLOGY
                    Below we provide a basic description of our methodological approach.
                    See Appendix A for a more detailed description of our methodology.
                    Scope
                    We analyzed paid CHS claims for services provided between
                    January and March 2008. We excluded claims for services that did
                    not have a corresponding Medicare rate and claims in which the
                    patient had another form of insurance, such as Medicare, Medicaid, or
                    private insurance.

                    While we calculated the extent to which claims were paid at a rate
                    greater than the Medicare rate for hospital and nonhospital services,
                    we did not make a causal determination as to why some claims were
                    overpaid.
                    Sample and Data Collection
                    We requested paid CHS claims from the IHS fiscal intermediary and
                    the 167 tribes that do not use the fiscal intermediary for services
                    delivered between January and March 2008. We requested that
                    programs submit only CHS claims that were not covered by another
                    type of insurance. We also requested that programs separate hospital
                    and nonhospital claims.

                    We received claims from the fiscal intermediary for all 84 IHS area
                    offices and local service units administering the CHS program and
                    the 8 tribes processing claims through the fiscal intermediary. We
                    received information directly from 102 of the 167 tribes that do not
                    use the fiscal intermediary. Despite repeated requests, we did not
                    receive any information from 65 tribes.

                    Next, we reviewed the claims submitted by IHS and tribes and
                    excluded any claims that were outside of our scope. After this, we had
                    80,043 claims.

                    From these 80,043 claims, we pulled a stratified random sample of
                    800 claims. The four strata were: IHS hospital, tribal hospital, IHS
                    nonhospital, and tribal nonhospital. Each stratum contained
                    200 claims. To improve the precision of our estimates, we further
                    stratified the 80,043 claims by the amount paid (small, medium, and
                    large).

 OEI-05-08-00410    I H S C O N T R A C T H E A LT H S E R V I C E S P R O G R A M : O V E R PAY M E N T S   AND   P O T E N T I A L S AV I N G S   4
I N T R O D        U C T            I O N


                    We also collected and reviewed all relevant laws, regulations, and
                    guidance regarding CHS programs and Medicare pricing for services.
                    Data Analysis
                    In total, we analyzed 716 of the 800 sampled claims. We excluded the
                    remaining 84 claims primarily because, upon further review, they fell
                    outside of our scope. Unless otherwise noted, we project all statistics
                    to IHS and the 63 percent of tribes from which we received claims.
                    See Appendix B for a list of 95-percent confidence intervals for all
                    statistical projections.

                    Determining the Medicare rate. To determine the Medicare rate, we
                    used the appropriate pricing software and fee schedules for 2008. For
                    inpatient hospital claims, the Medicare rate is based on the inpatient
                    prospective payment system (IPPS). 14 We used the Centers for
                    Medicare & Medicaid Services’ (CMS) publicly available IPPS pricing
                    software system to determine the Medicare rate for inpatient CHS
                    claims.

                    For outpatient hospital claims, the Medicare rate is based on an
                    outpatient prospective payment system. 15 Most services are classified
                    into clinically similar groups called Ambulatory Payment
                    Classifications (APC). For hospital outpatient claims, we used pricing
                    software developed by MediRegs 16 to determine the APC price.
                    However, some services do not use an APC code. In these cases, we
                    used various fee schedules, including the 2008 clinical laboratory fee
                    schedule.

                    For claims from cost-based facilities, such as critical-access hospitals,
                    the Medicare rate is based on each hospital’s per diem and
                    cost-to-charge ratio. We relied on the per diem and cost-to-charge
                    ratio from the most recently settled cost report to determine the
                    Medicare rate for cost-based facilities.

                    For nonhospital claims, the Medicare rate is based on a variety of
                    methods, including Relative Value Units (RVU) for physician services
                    and fee schedules for other nonhospital services. We used the

                        14 42 CFR § 136.30(c).
                        15 42 CFR § 136.30(c).
                        16 MediRegs is a private company that developed health care compliance software in
                    collaboration with the National Institutes of Health’s Health Services Research Library.
                    Mediregs, “Coding and Reimbursement Resources.” Available online at
                    http://hsrl.mediregs.com/cgi-bin/_trial/index_gen?page=q. Accessed on August 22, 2008.



 OEI-05-08-00410    I H S C O N T R A C T H E A LT H S E R V I C E S P R O G R A M : O V E R PAY M E N T S   AND   P O T E N T I A L S AV I N G S   5
I N T R O D        U C T            I O N


                    MediRegs RVU pricing software for physician services and various
                    Medicare fee schedules, including the 2008 ambulance fee schedule,
                    for other nonhospital services.

                    Determining the difference between CHS payments and the Medicare
                    rate. After we calculated the Medicare rate for sampled hospital
                    claims, we calculated the difference between the Medicare rate and
                    CHS payment. We calculated the percentage of claims paid above the
                    Medicare rate. We determined whether there was a difference in the
                    percentage of claims paid above the Medicare rate between IHS and
                    tribes. We tested whether the difference was statistically significant
                    at the 95-percent confidence level. If the paid amount was above the
                    Medicare rate, we determined by how much. We also calculated the
                    percentage of claims paid at or below the Medicare rate.

                    We performed a similar analysis of nonhospital claims to determine
                    any potential savings.

                    We also estimated the number of additional claims IHS and tribes
                    could have paid with hospital overpayments and the potential
                    nonhospital savings. To do this, we calculated an average Medicare
                    rate for hospital claims in our sample. We then divided total
                    overpayments for hospital claims by our calculated, average hospital
                    Medicare rate. We performed a similar analysis for potential savings
                    from nonhospital claims.
                    Limitations
                    When determining the Medicare rate for sampled claims, we priced
                    the services as they were coded. We did not attempt to check the
                    accuracy of the coding. IHS and tribes may have applied edits to
                    incorrectly coded claims. We expect that most of these edits would
                    reduce CHS payments because IHS and tribes would likely apply
                    edits to ensure that providers did not bill at higher rates than
                    appropriate. Thus, we expect that in most cases, edits reduce
                    payments to providers. Therefore, if IHS and tribes performed edits
                    on claims in our sample, we expect that it would only affect the
                    distribution between claims paid at the Medicare rate and claims
                    below the Medicare rate. We do not expect that it affected our
                    estimates of claims paid above the Medicare rate.

                    We were unable to determine the exact wage index to apply to
                    hospital claims. The wage index adjusts for health-care costs across
                    geographic regions and types of hospitals. A hospital’s wage index
                    changes slightly within a year, changing its Medicare rate. We

 OEI-05-08-00410    I H S C O N T R A C T H E A LT H S E R V I C E S P R O G R A M : O V E R PAY M E N T S   AND   P O T E N T I A L S AV I N G S   6
I N T R O D        U C T            I O N


                    controlled for this by using multiple versions of the inpatient and
                    outpatient pricing software. As a result, we expect any differences
                    attributable to changing wage indexes to be minimal.

                    When determining the Medicare rate, we did not consider whether
                    services were provided in a Health Professional Shortage Area 17 or
                    Physician Scarcity Area. 18 Medicare pays providers in these areas
                    quarterly bonuses based on their volume of claims. Thus, the total
                    Medicare payments for claims in these areas may be slightly higher
                    than the Medicare rate we calculated.
                    Standards
                    This study was conducted in accordance with the “Quality Standards
                    for Inspections” approved by the Council of the Inspectors General on
                    Integrity and Efficiency.




                        17 A Health Professional Shortage Area is a federally designated area reflecting a
                    shortage of primary medical care, dental, or mental health providers. Providers in these
                    areas are paid a 10-percent quarterly bonus on all claims. See SSA § 1833(m).
                        18 A Physician Scarcity Area is an area with a shortage of primary care physicians or
                    specialty care physicians. Physicians in these areas are paid a 5-percent quarterly bonus on
                    all claims. See SSA § 1833(u).



 OEI-05-08-00410    I H S C O N T R A C T H E A LT H S E R V I C E S P R O G R A M : O V E R PAY M E N T S   AND   P O T E N T I A L S AV I N G S   7
F   I N D I N G        S
Δ       F I N D I N G S

    IHS and tribes paid above the Medicare rate for              Despite the MMA provision,
22 percent of hospital claims between January and                IHS and tribes overpaid for
                                                                 22 percent of hospital claims
March 2008, resulting in $1 million in overpayments
                                                                 between January and March
                      2008. As a result, IHS and tribes overpaid $1 million in this period.
                      IHS and tribes could have used this money to pay for approximately
                      570 additional hospital claims, based on the average Medicare rate of
                      $1,900 per hospital claim. These overpayments could have paid for
                      hospital services that might otherwise have been deferred or denied.

                      On the other hand, this $1 million only accounts for 3 percent of the
                      total $33 million that IHS and tribes spent on hospital services
                      between January and March 2008. In fact, most claims were paid in
                      accordance with the MMA provision just 6 months after its
                      implementing regulation went into effect.

                      IHS and tribes paid at or below the Medicare rate for 78 percent of
                      hospital claims. Specifically, IHS and tribes paid at the Medicare rate
                      for 59 percent of hospital claims and paid below the Medicare rate for
                      19 percent of hospital claims.

                      When hospital claims were overpaid, most overpayments were
                      modest. The median amount overpaid was $24. The average
                      overpayment was $280. Yet, there were a few significant
                      overpayments. In our sample, IHS and tribes overpaid between
                      $10,000 and $34,000 on four hospital claims. The largest
                      overpayment was for a claim covering primarily laboratory tests and
                      drugs.
                      Most overpaid hospital claims were for outpatient services
                      Ninety percent of the overpaid hospital claims were for hospital
                      outpatient claims, totaling $752,000. In addition, hospital outpatient
                      claims were overpaid 24 percent of the time. In contrast, inpatient
                      claims were overpaid only 12 percent of the time.

                      Some overpayments for outpatient services may be attributable to
                      varying pricing software or to confusion about the payment
                      methodology. Because there is no publicly available outpatient claims
                      pricing software, IHS and tribes use a variety of pricing software. IHS
                      generally recommends purchasing pricing software from a commercial
                      vendor or contracting with a fiscal intermediary. Varieties of pricing
                      software differ in their comprehensiveness. For example, one type of
                      software only calculates the Medicare rate for services with an APC
                      code, requiring the user to access additional fee schedules for services

    OEI-05-08-00410   I H S C O N T R A C T H E A LT H S E R V I C E S P R O G R A M : O V E R PAY M E N T S   AND   P O T E N T I A L S AV I N G S   8
    F   I N D I N G        S


                          without an APC code. On the other hand, another type of software
                          calculates the Medicare rate for all services, including those without an
                          APC code.

                          Only 10 percent of claims paid over the Medicare rate were for
                          inpatient hospital services. For pricing inpatient claims, IHS
                          recommends the use of CMS’s IPPS pricing software. IHS has worked
                          with CMS to provide a step-by-step guide to pricing inpatient claims
                          using this software, including guidance on how often to download the
                          most recent version of the CMS software.
                          Tribes accounted for most dollars overpaid
                          Tribal CHS hospital claims accounted for 79 percent of the $1 million
                          overpaid for hospital claims. 19 Tribes paid $860,000 above the Medicare
                          rate while IHS paid $231,000 above the Medicare rate for hospital
                          claims.

                          There is no statistically significant difference between IHS and tribes in
                          the percentage of claims paid above the Medicare rate; however, tribes
                          paid higher amounts above the Medicare rate for hospital claims. On
                          average, tribes overpaid $534 per overpaid hospital claim. IHS overpaid
                          $101 per overpaid hospital claim.

                                                                     If payments for nonhospital
     If IHS and tribal payments for nonhospital claims
                                                                     claims were capped at the
were capped at the Medicare rate, IHS and tribes could               Medicare rate, potential
           have saved as much as $13 million between                 savings to IHS and tribes
                              January and March 2008                 would have ranged from
                                                                     $10 million to $13 million.
                          IHS and tribes paid $13 million above the Medicare rate for
                          nonhospital claims, representing 71 percent of claims. IHS and tribes
                          are not required to pay for nonhospital services at or below the
                          Medicare rate. Instead, IHS and tribes pay nonhospital claims in full
                          or at rates negotiated with the provider. There is no statistically
                          significant difference in the percentage of claims paid above the
                          Medicare rate between IHS and tribes.
                          If all nonhospital claims were paid at the Medicare rate, including
                          those claims that were paid below the Medicare rate, IHS and tribes
                          would still have realized a net savings of $10 million between


                            19 The total amount overpaid for hospital claims was $1.1 million. This explains why
                          79 percent equals $860,000.



        OEI-05-08-00410   I H S C O N T R A C T H E A LT H S E R V I C E S P R O G R A M : O V E R PAY M E N T S   AND   P O T E N T I A L S AV I N G S   9
F   I N D I N G        S


                      January and March 2008. While the majority of nonhospital claims
                      were paid above the Medicare rate, 29 percent were paid at or below
                      the Medicare rate. Of these, 14 percent were paid at the Medicare
                      rate. Additionally, for 15 percent of claims, providers accepted CHS
                      payments below the Medicare rate. This 15 percent of claims total
                      $3 million below the Medicare rate.

                      Imposing a cap may result in claims that are currently being paid
                      below the Medicare rate rising to the Medicare rate. However, IHS
                      and tribes proved that it is possible to successfully negotiate rates
                      lower than the Medicare rate when a payment cap is in effect. For
                      instance, 19 percent of hospital claims were paid below the Medicare
                      rate after the MMA provision went into effect. Thus, it is possible
                      that IHS and tribes could have saved $13 million if nonhospital
                      services were capped at Medicare rates.

                      The $13 million paid above the Medicare rate for nonhospital claims
                      represents almost half of the total $28 million spent on nonhospital
                      claims during this period. IHS and tribes could have used the
                      $13 million in savings to pay for approximately 41,000 additional
                      nonhospital claims between January and March 2008, based on the
                      average Medicare rate of $321 per nonhospital claim. Among IHS
                      CHS programs, an estimated 200,000 services were deferred or denied
                      in 2008. 20 This figure only includes IHS CHS programs and thus
                      would likely be significantly greater if tribes were included.

                      The median amount paid above the Medicare rate for nonhospital
                      claims was $98 and the average was $327. There were some
                      particularly large payments over the Medicare rate. In our sample,
                      IHS and tribes paid between $10,000 and $49,000 above the Medicare
                      rate on 14 nonhospital claims. The largest payment above the
                      Medicare rate was for a claim covering physician services from a
                      cardiothoracic surgical group.




                        20 As we only know the number of services deferred or denied, we cannot determine the
                      number of claims deferred or denied. One claim can include many services.



    OEI-05-08-00410   I H S C O N T R A C T H E A LT H S E R V I C E S P R O G R A M : O V E R PAY M E N T S   AND   P O T E N T I A L S AV I N G S   10
F   I N D I N G        S


                      Ninety-one percent of nonhospital claims paid above the Medicare
                      rate were for physician services. Overall, physician services made up
                      88 percent of all nonhospital claims. The remaining 9 percent of
                      nonhospital claims paid above the Medicare rate were for ambulance
                      services, durable medical equipment, and services provided in
                      ambulatory surgical centers.




    OEI-05-08-00410   I H S C O N T R A C T H E A LT H S E R V I C E S P R O G R A M : O V E R PAY M E N T S   AND   P O T E N T I A L S AV I N G S   11
F   I N D I N G        S
Δ       R E C O M M E N D A T I O N S

                      Within 6 months after the MMA requirement went into effect, IHS
                      and tribes paid above the Medicare rate for 22 percent of hospital
                      claims. As a result, IHS and tribes overpaid $1 million for hospital
                      claims between January and March 2008. The majority of overpaid
                      claims were for hospital outpatient services.

                      If IHS and tribal payments for nonhospital claims were capped at the
                      Medicare rate, IHS and tribes could have saved as much as
                      $13 million between January and March 2008. These savings could
                      have allowed IHS and tribes to pay for a significant number of
                      services to American Indians and Alaska Natives who might
                      otherwise have gone without needed health care.
                      Our findings led us to the following recommendations:
                      IHS and Tribes Should Take Appropriate Action Regarding Overpaid
                      CHS Hospital Claims
                      IHS and tribes paid above the Medicare rate for 22 percent of
                      hospitals claims, in violation of the MMA provision. We have
                      forwarded all IHS hospital claims that we determined were overpaid
                      to IHS for followup. We have forwarded all tribal hospital claims that
                      we determined were overpaid to tribes. IHS should take action to
                      collect any overpayments paid through the IHS fiscal intermediary.
                      Tribes should do likewise.
                      IHS Should Direct Its Fiscal Intermediary To Ensure That All Future
                      CHS Hospital Claims Are Paid at or Below the Medicare Rate
                      We found that the IHS fiscal intermediary paid $231,000 over the
                      Medicare rate for hospital claims. IHS should direct the fiscal
                      intermediary to ensure that no future hospital claims are paid above
                      the Medicare rate. In addition, IHS could review the claims that we
                      determined were overpaid to pinpoint specific problem areas that led
                      to overpayments.
                      IHS Should Provide Technical Assistance to Tribes To Ensure Proper
                      Payments of Hospital Claims
                      We found that tribes paid $860,000 over the Medicare rate for
                      hospital claims. IHS should provide tribes with technical assistance
                      in determining the Medicare rate for hospital claims. Because IHS
                      receives limited information from tribes, it should determine why
                      tribes paid over the Medicare rate. It can determine this using a
                      variety of techniques. We have sent IHS basic service information
                      about tribal claims paid over the Medicare rate. IHS could review
                      these claims to pinpoint specific problem areas that led to

    OEI-05-08-00410   I H S C O N T R A C T H E A LT H S E R V I C E S P R O G R A M : O V E R PAY M E N T S   AND   P O T E N T I A L S AV I N G S   12
R   E C O        M M E N D A T                        I O N              S


                      overpayments. In addition, it could survey tribes to determine their
                      challenges and successful practices in determining the Medicare rate.

                      Once IHS determines potential barriers to proper payments, IHS
                      could develop guidance to prevent future overpayments. For example,
                      it could share the identified challenges and successful practices with
                      all tribes.
                      IHS Should Seek Legislative Authority To Cap Payments for CHS
                      Nonhospital Services
                      Historically, IHS and tribes have had difficulty negotiating low rates
                      for CHS due to the relatively small number of American Indians and
                      Alaska Natives and because there are few private providers in rural
                      areas. The passage of the MMA provision helped ensure lower rates
                      for hospital services. A separate provision may be necessary to
                      ensure lower rates for nonhospital services. Whatever method IHS
                      uses to cap payments reasonably and accurately should be
                      determined after careful determination of the impact of the new rates
                      on the provider community, as well as other potential barriers to
                      implementing the new rates.

                      One option would be to extend Medicare rate requirements to
                      nonhospital services. We have shown that IHS and tribes would have
                      realized considerable savings if they had paid at the Medicare rate for
                      nonhospital services. In fact, IHS and tribes could have saved
                      up to $13 million if nonhospital claims were capped at Medicare rates.
                      These savings could also have paid for nonhospital claims for
                      American Indians and Alaska Natives who might otherwise be denied
                      CHS health-care services.

                      IHS could also pursue other methods to cap payments to nonhospital
                      providers. For instance, IHS could create a national fee schedule for
                      nonhospital CHS services or adapt other, existing payment
                      methodologies for health-care services.


                      AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                      RESPONSE
                      IHS concurred with all four of our recommendations. IHS also noted
                      two potential weaknesses with the pricing software that we used to
                      calculate Medicare rates for hospital outpatient claims. We did not
                      make any changes to the report based on IHS’s comments. For the
                      full text of IHS’s comments, see Appendix C.


    OEI-05-08-00410   I H S C O N T R A C T H E A LT H S E R V I C E S P R O G R A M : O V E R PAY M E N T S   AND   P O T E N T I A L S AV I N G S   13
R   E C O        M M E N D A T                        I O N              S


                      In response to our first recommendation, that IHS and tribes take
                      appropriate action regarding overpaid CHS hospital claims, IHS stated
                      that it will direct the fiscal intermediary to review the claims identified
                      by OIG as overpaid and, where appropriate, initiate refunds.

                      In response to our second recommendation, that IHS direct its fiscal
                      intermediary to ensure that all future CHS hospital claims are paid at
                      or below the Medicare rate, IHS stated that it will instruct the fiscal
                      intermediary to conduct random claims sampling for financial and
                      claims processing accuracy. The findings from these monthly audits will
                      be submitted to IHS and used to track improvement in this area.
                      In response to our third recommendation, that IHS provide technical
                      assistance to tribes to ensure proper payments of hospital claims, IHS
                      stated that a thorough review of our report, along with any additional
                      agency findings, will enable IHS to tailor training to address claims
                      identified as overpaid and provide guidance to help tribes more
                      consistently calculate claims payments in accordance with regulations.
                      In response to our fourth recommendation, that IHS seek legislative
                      authority to cap payments for CHS nonhospital services, IHS stated
                      that it will continue to meet with tribes and tribal organizations to
                      develop a plan to cap payments for nonhospital services.

                      IHS noted that the MediRegs Ambulatory Payment Classification
                      software OIG used to calculate outpatient hospital claims payment
                      does not include outlier payments or the 7.1-percent add-on for rural
                      sole community hospitals. OIG recognizes that some differences in
                      the Medicare price may be attributed to different pricing software.
                      Specifically, we acknowledge, in the limitations section, that when
                      determining the Medicare rate for sampled claims, we priced the
                      services as they were coded and did not attempt to check the accuracy
                      of the coding. Thus, we could not identify outlier payments.

                      We also acknowledge, in the limitations section, that we did not take
                      shortage or scarcity area bonuses into account when calculating the
                      Medicare rate for hospital claims. This could have caused the total
                      Medicare payments for claims in these areas to be slightly higher
                      than the Medicare rate we calculated.




    OEI-05-08-00410   I H S C O N T R A C T H E A LT H S E R V I C E S P R O G R A M : O V E R PAY M E N T S   AND   P O T E N T I A L S AV I N G S   14
Δ       A P P E N D I X                                      ~           A


                              DETAILED METHODOLOGY
                              Sample
                              We pulled a stratified random sample of 800 claims. The four strata
                              were: Indian Health Services (IHS) hospital, tribal hospital, IHS
                              nonhospital, and tribal nonhospital. We further stratified by the
                              amount paid. We categorized paid amounts as small, medium, or
                              large. See Table A-1 for claims sampled by strata.



 Table A-1: Stratified Sample Structure

                               Small                Medium                  Large                    Small               Medium                    Large           Total
 Stratum                     Claims:                Claims:               Claims:                  Claims:               Claims:                 Claims:       Number
 Description               Population             Population            Population                 Sample                Sample                  Sample       of Claims
                                                                                                                                                                     per
                                                                                                                                                               Stratum
                                                         Paid                                                                 Paid
                                   Paid               amount                   Paid                  Paid                  amount                  Paid
 Hospital claims                amount            $1,000.01–                 amount                amount              $1,000.01–                amount
                              <=$1,000               $10,000               >$10,000              <=$1,000                 $10,000              >$10,000
  IHS hospital                   8, 748                2, 587                   443                    65                       65                   70             200
  Tribal hospital                5, 973                1, 526                   193                    65                       65                   70             200
                                                         Paid                                                                 Paid
                                    Paid              amount                   Paid                   Paid                 amount                  Paid
 Nonhospital claims              amount             $500.01–               amount >                 amount               $500.01–              amount >
                                 <=$500                $4,000                $4,000                 <=$500                  $4,000               $4,000
  IHS nonhospital                 25,475                7,919                   996                     65                      65                   70             200
  Tribal nonhospital              22,119                3,711                   353                     65                      65                   70             200
   Total                          62,315               15,743                 1,985                    260                     260                  280             800
Source: Office of Inspector General (OIG) analysis, 2009.



                              Data Collection
                              We collected paid claims from the Contract Health Services (CHS)
                              program for services delivered between January and March 2008. We
                              chose this period for two reasons. First, most claims during this
                              period should have been processed and paid by the time we requested
                              them in October 2008. Second, limiting our scope to 3 months
                              lessened the resource burden on IHS and tribes, while providing a
                              reliable snapshot of CHS payments.

                              We selected claims for services delivered during this period rather
                              than claims paid in this period to ensure that all claims were covered
                              under the Medicare Prescription Drug, Improvement, and
                              Modernization Act of 2003 (MMA) provision. There is a delay
                              between when services are provided and when IHS and tribes pay the
                              claim. Thus, hospital claims paid during this time may have been for



  OEI-05-08-00410             I H S C O N T R A C T H E A LT H S E R V I C E S P R O G R A M : O V E R PAY M E N T S   AND   P O T E N T I A L S AV I N G S          15
A   P   P E N D            I X             ~           A


                             services delivered prior to July 2007 and thus not covered by the
                             MMA provision.
                             Data Analysis
                             For each analyzed claim, we calculated the Medicare rate for each line
                             item. A claim can have multiple line items representing separate
                             services provided in one provider visit. Next, we added the Medicare
                             rate for each line item to determine the total Medicare rate for the
                             claim and compared that to the total CHS payment for the claim.

                             We could not analyze 84 of the 800 claims in our sample. Of these,
                             56 were for services that were outside of our scope. For instance, they
                             did not have a corresponding Medicare rate or were outside of our
                             time period. The remaining claims were missing information needed
                             to determine a Medicare rate, such as service codes.

                             Twenty-three sampled claims were incorrectly labeled hospital or
                             nonhospital and thus placed in an incorrect stratum. We recognized
                             that they were incorrect by the type of bill or the provider name. We
                             analyzed these claims in their correct strata. This explains why there
                             are more IHS hospital claims analyzed than sampled. See
                             Table A-2 for the number of claims analyzed and the number removed
                             from analysis in each of the four strata.


                      Table A-2: Claims Analyzed and Removed From Analysis Within Each
                      Stratum

                      Stratum of Claims                                          Sampled                              Analyzed                               Removed From
                                                                                                                                                                  Analysis
                      IHS hospital                                                        200                                  205                                       0
                      Tribal hospital                                                     200                                  169                                      35
                      IHS nonhospital                                                     200                                  182                                      13
                      Tribal nonhospital                                                  200                                  160                                      36
                       Total                                                              800                                  716                                      84
                  Source: OIG analysis of CHS claims, 2009.



                             Determining the Medicare rate for hospital services. We used separate
                             methods to determine the Medicare rate for hospital inpatient
                             services, hospital outpatient services, and services provided in
                             cost-based hospitals.

                             To determine the Medicare rate for inpatient services, we used the
                             Centers for Medicare & Medicaid Services’ (CMS) Inpatient
                             Prospective Payment System. We used this system because IHS
                             recommended it. In addition, we referenced IHS guidance on
                             determining a Medicare rate for hospital inpatient services.

    OEI-05-08-00410          I H S C O N T R A C T H E A LT H S E R V I C E S P R O G R A M : O V E R PAY M E N T S   AND   P O T E N T I A L S AV I N G S             16
A   P   P E N D       I X           ~           A


                      To determine a Medicare rate for outpatient services, we used
                      MediRegs’ Ambulatory Payment Classifications (APC) pricing
                      software. It calculates a Medicare rate for outpatient claims based on
                      the service code, provider name, and date of claim. We included
                      copayments when determining the Medicare rate for hospital
                      outpatient claims because the CHS program covers all costs of the
                      visit, including copayments. We also took into account all modifiers
                      and status indicators, relying on CMS manuals and MediRegs data to
                      determine how they affected the Medicare rate.

                      MediRegs’ APC pricing software only accounts for hospital outpatient
                      services with an APC code. For other services on a hospital
                      outpatient claim, we referenced the corresponding fee schedule, such
                      as the clinical laboratory fee schedule and the durable medical
                      equipment fee schedule. We chose MediRegs because the company
                      has a history of providing support to Government entities, including
                      the National Institutes of Health Library. 21 According to MediRegs,
                      more than 800 hospitals and thousands of health-care professionals
                      also use MediRegs pricing software. 22
                      To determine the Medicare rate for cost-based hospitals, we used the
                      per-diem and cost-to-charge rates from the most recently settled cost
                      report. We received these rates from the IHS fiscal intermediary.
                      Some new critical-access hospitals in our sample did not yet have a
                      settled cost report. This occurred for 12 hospital claims. For these
                      hospitals, we used the amount that IHS or tribes paid as the
                      Medicare rate.

                      Controlling for the provider wage index. The Medicare rate changes at
                      various times throughout the year when a provider’s wage index
                      changes. Therefore, we controlled for wage index changes when
                      determining the Medicare rate for inpatient and outpatient claims.

                      For inpatient claims, we priced each claim using the two different
                      versions of CMS’s 2008 Inpatient Prospective Payment System.
                      Because we sampled based on service date, we do not know when IHS
                      or tribes paid for each claim and thus what version of the Inpatient


                          21 Federal Business Opportunities, “Medi-regs Database.” Available online at:

                      https://www.fbo.gov/index?s=opportunity&mode=form&id=b36a4365c874323eba878548dd6f
                      4b5b&tab=core&_cview=0. Accessed on April 7, 2009.
                        22 MediRegs, “Our Clients: Testimonials.” Available online at
                      http://www.mediregs.com/clients/our-clients. Accessed on April 6, 2009.



    OEI-05-08-00410   I H S C O N T R A C T H E A LT H S E R V I C E S P R O G R A M : O V E R PAY M E N T S   AND   P O T E N T I A L S AV I N G S   17
A   P   P E N D            I X            ~           A


                            Prospective Payment System was used. Therefore, we determined
                            that the claim was paid at the Medicare rate if the amount paid
                            matched either version of the Medicare rate. If the amount paid did
                            not match either version, we determined the Medicare rate using the
                            pricing software in effect between January and October 2008.

                            For outpatient claims, we priced each claim using both the 2008 and
                            2009 MediRegs’ APC pricing software. MediRegs updates the
                            outpatient pricer annually to account for wage index changes. We
                            took a conservative approach and accepted the amount paid as the
                            Medicare rate if it fell within 2008 and 2009 prices. If the amount
                            paid was not within that range, we compared the amount paid to the
                            2008 Medicare rate.

                            Determining the Medicare rate for nonhospital services. Each type of
                            nonhospital service required a different process to determine the
                            Medicare rate. For physician services, we used MediRegs’ Relative
                            Value Unit calculator to determine the Medicare rate. We took into
                            account all modifiers on the claims, relying on CMS manuals to
                            determine how physician modifiers affect the Medicare rate. For all
                            other nonphysician services, we used the appropriate source to
                            determine the Medicare rate. See Table A-3 for the systems that we
                            used to determine the Medicare rate for nonhospital services.

          Table A-3: Identifying the Medicare Rate for Nonhospital Services


          Nonhospital Service                                                                                       CMS Pricing Source, 2008
          Anesthesiologist                                                                          Anesthesia base units and conversion factor
          Ambulance                                                                                                    Ambulance fee schedule
          Durable medical equipment                                                                    Durable medical equipment fee schedule
                                                                    Ambulatory surgical center fee schedule and MediRegs’ ambulatory surgical
          Ambulatory surgical center                                                                                          center wage index
          Independent laboratories                                                                              Clinical laboratory fee schedule
          End-stage renal disease center                                                End-stage renal disease center prospective payment calculator
         Source: OIG analysis of the systems used for determining the Medicare rate, 2009.




    OEI-05-08-00410         I H S C O N T R A C T H E A LT H S E R V I C E S P R O G R A M : O V E R PAY M E N T S   AND   P O T E N T I A L S AV I N G S   18
A   P    P E N D              I X            ~           B
Δ        A P P E N D I X                                      B


                               ESTIMATES AND CONFIDENCE INTERVALS
                               See Tables B-1–B-4 for the point estimates and confidence intervals
                               for the results discussed in the first finding.


     Table B-1: Hospital Claims Paid At, Below, and Above the Medicare Rate
                                                                                                                                          95-Percent Confidence
      Estimate Description                            Sample Size                                 Point Estimate                                        Interval
      Percentage of hospital claims paid above the
      Medicare rate                                          374                                                 22.0%                                     16.1%–27.9%
      Percentage of hospital claims paid at or
      below the Medicare rate                                374                                                 78.0%                                     72.1%–83.9%
      Percentage of hospital claims paid at the
      Medicare rate                                          374                                               59.4%*                                      52.4%–66.3%
      Percentage of hospital claims paid below the
      Medicare rate                                          374                                               18.7%*                                      13.2%–24.1%
    * Numbers do not add up to exactly 78.0 due to rounding.
    Source: Office of Inspector General (OIG) analysis of hospital claims, 2009.



     Table B-1a: Indian Health Service Hospital Claims Paid At, Below, and Above the
     Medicare Rate
                                                                                                                                          95-Percent Confidence
     Estimate Description                                              Sample Size                Point Estimate                                        Interval
     Percentage of Indian Health Service (IHS)
     hospital claims paid above the Medicare rate                                     205                        18.7%                                     11.5%–25.9%
     Percentage of IHS hospital claims paid at or
     below the Medicare rate                                                          205                        81.3%                                     74.1%–88.5%
    Source: OIG analysis of IHS hospital claims, 2009.



     Table B-1b: Tribal Hospital Claims Paid At, Below, and Above the Medicare Rate
                                                                                                                                          95-Percent Confidence
     Estimate Description                                              Sample Size                Point Estimate                                        Interval
     Percentage of tribes’ hospital claims paid
     above the Medicare rate                                                          169                        29.1%                                     18.7%–39.5%
     Percentage of tribes’ hospital claims paid at
     or below the Medicare rate                                                       169                        70.9%                                     60.5%–81.3%
    Source: OIG analysis of tribes’ hospital claims, 2009.




    OEI-05-08-00410            I H S C O N T R A C T H E A LT H S E R V I C E S P R O G R A M : O V E R PAY M E N T S   AND   P O T E N T I A L S AV I N G S             19
A   P    P E N D             I X              ~          B




     Table B-2: Dollars Spent on Hospital Claims
                                                                                                                                          95-Percent Confidence
     Estimate Description                                              Sample Size                Point Estimate                                        Interval
     Dollars spent above the Medicare rate for
     hospital claims                                                                   80               $1.1 million                    $0.8 million–$1.4 million
     Dollars spent on hospital claims                                                 374              $32.8 million                  $29.6 million–$36.0 million
     Average Medicare rate per claim                                                  374                   $1,907                                $1,691–$2,124
     Average amount overpaid among hospital
     claims paid above the Medicare rate                                               80                          $280                                         $179–$382
     Tribes’ dollars spent above the Medicare rate
     for hospital claims                                                               48                   $860,446                          $585,443–$1.1 million
     IHS dollars spent above the Medicare rate for
     hospital claims                                                                   32                   $230,682                             $139,931–$321,432
     Tribes’ average amount overpaid among
     hospital claims paid above the Medicare rate                                      48                          $534                                         $363–$705
     IHS average amount overpaid among
     hospital claims paid above the Medicare rate                                      32                          $101                                          $61–$141
    Source: OIG analysis of hospital claims, 2009.



     Table B-3: Hospital Claims Paid Over the Medicare Rate by Type of Claim
                                                                                                                                          95-Percent Confidence
     Estimate Description                                              Sample Size                Point Estimate                                        Interval
     Percent of overpaid claims that were
     outpatient                                                                        80                        90.5%                                     86.2%–94.7%
     Percent of overpaid claims that were inpatient                                    80                         9.5%                                      5.3%–13.8%
     Percentage of outpatient claims that were
     paid over the Medicare rate                                                      174                        24.0%                                     17.2%–30.9%
     Percentage of inpatient claims that were paid
     over the Medicare rate                                                           200                        12.0%                                         6.1%–18.0%
    Source: OIG analysis of hospital claims, 2009.



     Table B-4: Dollars Spent Over the Medicare Rate for Outpatient Claims
                                                                                                                                          95-Percent Confidence
     Estimate Description                                              Sample Size                Point Estimate                                        Interval
     Dollars spent above the Medicare rate for
     outpatient services                                                              174                   $751,633                          $468,218–$1.0 million
    Source: OIG analysis of hospital claims, 2009.




    OEI-05-08-00410            I H S C O N T R A C T H E A LT H S E R V I C E S P R O G R A M : O V E R PAY M E N T S   AND   P O T E N T I A L S AV I N G S                20
A   P    P E N D              I X            ~           B


                               See Tables B-5–B-7 for the point estimates and confidence intervals
                               for the results discussed in the second finding.


     Table B-5: Dollars Spent on Nonhospital Claims
                                                                                                                                          95-Percent Confidence
     Estimate Description                                              Sample Size                Point Estimate                                        Interval
     Dollars spent above the Medicare rate for
     nonhospital claims                                                               273              $13.1 million                  $11.4 million–$14.9 million
     Dollars spent below the Medicare rate for
     nonhospital claims                                                                36                $3.2 million                         $500,000–$5.9 million

     Dollars spent on nonhospital claims                                              342                 $28 million                 $25.3 million–$30.7 million
     Average overpaid among nonhospital claims
     above the Medicare rate                                                          273                          $327                                         $281–$374
     Average Medicare rate                                                            342                          $321                                         $256–$386
    Source: OIG analysis of nonhospital claims, 2009.



     Table B-6: Nonhospital Claims Paid At, Below, and Above the Medicare Rate

                                                                                                                                          95-Percent Confidence
     Estimate Description                                              Sample Size                Point Estimate                                        Interval
     Percentage of nonhospital claims paid above
     the Medicare rate                                                               342                        71.4%                                      64.6%–78.2%
     Percentage of nonhospital claims that were
     paid at or below the Medicare rate                                              342                        28.6%                                      21.9%–35.4%
     Percentage of nonhospital claims paid at the
     Medicare rate                                                                   342                        14.0%                                          8.8%–19.1%
     Percentage of nonhospital claims paid below
     the Medicare rate                                                               342                        14.6%                                          9.5%–19.7%
    Source: OIG analysis of nonhospital claims, 2009.



     Table B-6a: IHS Nonhospital Claims Paid At, Below, and Above the Medicare Rate
                                                                                                                                          95-Percent Confidence
     Estimate Description                                              Sample Size                Point Estimate                                        Interval
     Percentage of IHS nonhospital claims paid
     above the Medicare rate                                                          182                        71.2%                                     62.1%–80.3%
     Percentage of IHS nonhospital claims paid at
     or below the Medicare rate                                                       182                        28.8%                                     19.7%–37.9%
    Source: OIG analysis of IHS nonhospital claims, 2009.



     Table B-6b: Tribal Nonhospital Claims Paid At, Below, and Above the Medicare Rate
                                                                                                                                          95-Percent Confidence
     Estimate Description                                              Sample Size                Point Estimate                                        Interval
     Percentage of tribes’ nonhospital claims paid
     above the Medicare rate                                                          160                        73.3%                                     63.1%–83.5%
     Percentage of tribes’ nonhospital claims paid
     at or below the Medicare rate                                                    160                        26.7%                                     16.5%–36.9%
    Source: OIG analysis of tribes’ nonhospital claims, 2009.




    OEI-05-08-00410            I H S C O N T R A C T H E A LT H S E R V I C E S P R O G R A M : O V E R PAY M E N T S   AND   P O T E N T I A L S AV I N G S                21
A   P    P E N D             I X            ~           B




     Table B-7: Payments for Physician Services
                                                                                                                                         95-Percent Confidence
     Estimate Description                                             Sample Size                Point Estimate                                        Interval
     Percentage of nonhospital claims paid over
     the Medicare rate that were for physician
     claims                                                                          273                        90.8%                                     87.1%–94.5%
     Percentage of all nonhospital claims that
     were for physician claims                                                       342                        88.4%                                     84.5%–92.3%
    Source: OIG analysis of nonhospital claims, 2009.




    OEI-05-08-00410           I H S C O N T R A C T H E A LT H S E R V I C E S P R O G R A M : O V E R PAY M E N T S   AND   P O T E N T I A L S AV I N G S             22
Δ   A P P E N D I X                              C


                  AGENCY COMMENTS




OEI-05-08-00410   I H S C O N T R A C T H E A LT H S E R V I C E S P R O G R A M : O V E R PAY M E N T S   AND   P O T E N T I A L S AV I N G S   23
A   P   P E N D       I X           ~           C




    OEI-05-08-00410   I H S C O N T R A C T H E A LT H S E R V I C E S P R O G R A M : O V E R PAY M E N T S   AND   P O T E N T I A L S AV I N G S   24
A P PEN 0               x                 c




                   Plle 3 - Iipotor Genera

                   r.ations with denstrons ~wUn how to cacula difer,nt McdiCl .burscment
                   metodologi.. ,_ '
                   In Iui 2008, tM AgOl reI_ad anIHS-dovolope Web site Untitled "McdcIU.iib Rates
                   rnfonnon," tòprvi4e Tribo an Trl~ otpntions with an overvew of th nigury
                   cba~, along with other teclu resour.. Inorion aval~l. frm th Weo page
                   includ th, folloWing: ML Freuently Ased Quetioii sale ptovidet le_ to issit
                   Tribal ørons in noting ptovi_ oerate chages; ust\ lin to reaton rolòVan
                   CFR sIte, et. The Web sito iill is htt:/l\,ih.lJv/noniciiro~in.

                   Thugut tb yeà an 2010, in conjuicûgn with other Agay trg semi cudy
                   bl:SPlaied th topic Wil be inlud IS II rcur¡ ii¡ei itent

                   Attch at Tab D is th agon for tl most         reenty scheuled CMS TratUii Sein,held _
                   May 12 t1ugl is, 2009, in Denvet,       Colota, and MLR Web site infortion.



                   4. TIl. JH should seekloplativ. aullority to oa'P payienta for CH Iloiiosplta somiiii.
                   The IH concur with t1 reoinndaon. 'fe Aiienoy reiz the potential1inetlts of,
                   extendbith. Medcll Prption Druiilirovellnt iid Modoniztion Aç oi2D03
                   ro¡uliitions iid ha be dig th. and rolate isues with Trbe at varous 1age-le
                   meeti sub. as the Direct Seri~ Tribø IUd the National Indi Health BoW Confernc.
                   ThëUlS wil contue to met with Trlbt ll Triba Orgaizaons to devcdop a plan to ca
                   paymts fo nonhspitá sltCC
                   TI you      for aloWÎS th,1H to providá coinen on tM oro's dr report .

                                                                            /S/
                                                                   Yvette Raubidwe MD., M.P.H.

                   Attcbilita
                   Tab A Septo~ 1" 1008 Momoraum .t CMS "Claficaon for ModiCl-iike Rato
                            Re¡utiù. . . ' ,
                   Tab B May 12.15, 2009 CHS Tra Soøû Aionda øn ML Web site iifomon




 OEI-OS-OS.00410      IHS CONTRACT HEALTH SERVICES PROGRAM: OVERPAYMENTS AND POTENTIAL SAVINGS              25
Δ   A C K N O W L E D G M E N T S

                  This report was prepared under the direction of Ann Maxwell,
                  Regional Inspector General for Evaluation and Inspections in the
                  Chicago regional office, and Thomas Komaniecki, Deputy Regional
                  Inspector General.

                  Anne Bracken served as the team leader for this study and Beth
                  McDowell served as the lead analyst. Other principal Office of
                  Evaluation and Inspections staff from the Chicago regional office who
                  contributed to the report include Di Zhang; other central office staff
                  who contributed include Robert Gibbons and Talisha Searcy.




OEI-05-08-00410   I H S C O N T R A C T H E A LT H S E R V I C E S P R O G R A M : O V E R PAY M E N T S   AND   P O T E N T I A L S AV I N G S   26
